Time Federal Savings Bank Credit Card Disclosure Agreement
(VISA Classic, VISA Gold)
These regulations are effective November 14, 2017. In these regulations, the words you, and your mean each and all of those who applied for the card. Card
means your VISA credit card issued by Time Federal Savings Bank and any duplicates or renewals we issue. Account means your VISA credit card account.
We, us, and our mean Time Federal Savings Bank.
1. Responsibility. If you apply for and receive a card from us, you agree to these regulations. You also agree to repay all debts and any INTEREST CHARGE
or any other fees or charges arising from the use of the card and the card account. For example, you are responsible for charges made by yourself, your spouse
and minor children. You are also responsible for charges made by anyone else to whom you give the card, and this responsibility continues until you recover and
return the card to us. Except to the extent allowed by law, you cannot disclaim responsibility by notifying us and it continues even though an agreement, divorce
decree or other court judgment to which we are not a party may direct you or one of the other persons responsible to pay the account. Any person using the card
shall be jointly responsible with you for charges he or she makes, and if that person signs the card, and receives a copy of these regulations, he or she is also
responsible for all charges on the account, including yours.
2. Credit Line. We will establish a Credit Line for you and advise you on its amount. You agree not to let the account balance exceed the Credit Line. We
reserve the right to reduce your Credit Line from time to time, or to revoke your card without affecting your obligation to pay the account balance. The cards
remain our property, and if we request you must recover and surrender to us all cards we have issued on your account.
3. Interest Charges. Your account will be subject to an INTEREST CHARGE for any statement period during which you failed to pay in full the Previous
Balance shown on the statement during the first 25 days of the statement period. The interest portion of the INTEREST CHARGE is calculated by applying the
following monthly periodic rates to the “average daily balance” of your account:
Purchases:
0.825% per month (9.90% ANNUAL PERCENTAGE RATE)
Balance Transfers:
0.825% per month (9.90% ANNUAL PERCENTAGE RATE)
Cash Advances:
0.825% per month (9.90% ANNUAL PERCENTAGE RATE)
Purchases and Balance Transfers (Method G) Average Daily Balance (including current transactions). To avoid incurring additional Interest Charge on the
balance of purchases (and cash advances, if Method G is specified as applicable to cash advances) reflected on your monthly statement and, on any new
purchases (and if applicable, cash advances) appearing on your next monthly statement, you must pay the entire “New Balance” in full, shown on your monthly
statement on or before the Payment Due Date.
The Interest Charges for a billing cycle are computed by applying the monthly Periodic Rate to the “average daily balance” of purchases (and if applicable, cash
advances). To get the average daily balance, we take the beginning balance of your account each day, add any new purchases or cash advances, and subtract
any payments, credits, non-accruing fees, and unpaid interest charges. This gives us the daily balance. Then we add up all the daily balances for the billing
cycle and divide the total by the number of days in the billing cycle.
Cash Advances. (Method F) Average Daily Balance (including current transactions). To avoid incurring additional Interest Charge on the beginning balance of
cash advances (and purchases if Method F is specified as applicable to purchases) reflected on your monthly statement, you must pay the Beginning Balance
shown on your monthly statement on or before the Payment Due Date. No grace period is provided for current cycle transactions.
The Interest Charges for a billing cycle are computed by applying the Periodic Rate to the “average daily balance” of cash advances (and if applicable,
purchases). To get the average daily balance, we take the beginning balance of your account each day, add any new purchases or cash advances, and subtract
any payments, credits, non-accruing fees, and unpaid interest charges. This gives us the daily balance. Then we add up all the daily balances for the billing
cycle and divide the total by the number of days in the billing cycle.
You can avoid any INTEREST CHARGES on purchases by paying in full the New Balance shown on your monthly statement within 25 days of the statement
closing date. Each cash advance will be subject to an INTEREST CHARGE (cash advance fee) of 2% of the face amount of the cash advance or $2.00,
whichever is greater (maximum $20.00).
4. Penalty Fees. Your account will also be subject to the following additional fees:
a. A Late Payment Fee of up to $10.00 for any statement period in which you fail to pay at least the Minimum Payment described below
Within a minimum of 15 days after the payment due date.
b. A returned check fee of up to $15.00 will be assessed as a purchase if we receive a check that is presented for payment to your VISA
Account which is returned unsatisfied because you do not have an account with the financial institution, your account does not have
sufficient funds in it or you do not have sufficient credit with the financial institution.
5. Monthly Statement; Minimum Payment. We will mail you a statement every month showing your Previous Balance, the current transactions on your
account, the remaining regular credit available under your Credit Line, the New Balance, and the Minimum Payment due. Every month you must pay at least the
Minimum Payment within 25 days after the date of your statement. If you fail to pay the minimum payment within 15 days after the due date, your account will be
subject to a Late Payment Fee in the amount of up to $10.00. You may of course, pay more than the Minimum Payment, or pay the New Balance in full and
you will reduce or avoid the INTEREST CHARGE by doing so. The Minimum Payment will be applied as follows: a) any unpaid finance charges on cash
advances; b) any unpaid finance charges on retail purchases; c) any past due principal on cash advances; d) any past due principal on retail purchases; e) any
finance charges due on cash advances; f) any finance charges due on retail purchases; g) principal due on new cash advances; h) principal due on any new
retail purchases including late charges, and any other fees; i) remaining balances on cash advances; j) remaining balances on retail purchases.
A Minimum Payment is required for every statement period and any additional amount received, if sufficient, may be used to satisfy the next required
minimum payment amount. Your Minimum Payment will be the full amount by which your regular New Balance exceeds your credit line, plus 3% of your New
Balance or $20.00, whichever is greater, or your full New Balance if it is less than $20.00.
6. Payment Crediting and Credit Balance. Payments received by 5PM EST at the location specified on the front of the statement after the phrase “Please
Mail Your Payments to” will be credited as of the date of receipt to the account specified on the payment coupon. Payments may also be presented at any
Time Federal Savings Bank office and will be applied to your account within one business day. Payments must be made in U.S. dollars. Payments that do not
conform to the requirements set forth on or with the periodic statement (e.g. missing payment stub, payment envelope other than as provided with your
statement, multiple checks or multiple coupons in the same envelope) may be subject to delay in crediting but shall be credited within five days of receipt. If there
is a credit balance due on your account, you may request, in writing, a full refund. Submit your request to Time Federal Savings Bank, PO Box 239, Medford, WI
54451-0239. By sending your check, you are authorizing the use of the information on your check to make a one-time electronic debit from the account on which
the check is drawn. This electronic debit, which may be posted to your account as early as the date your check is received, will be only for the amount of your
check. The original check will be destroyed and we will retain its image in our records. If you have questions please call the customer service number on the
front of your billing statement.
Closing Date. The closing date is the last day of the billing cycle; all transactions received after the closing date will appear on your next statement.
Negative Credit Reports. We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on your account
may be reflected in your credit report.
7. Default. You will be in default if you fail to make the Minimum Payment on time 2 times during any 12 month period. You will also be in default if your ability
to repay us, or the value to us of your security interest, is materially reduced by a change in your employment, an increase in your obligations, your failure to
abide by these regulations, or the fact that you or your spouse dies, changes domicile or marital status, or becomes the subject of bankruptcy or insolvency
proceedings. We have the right to demand immediate payment of your full account balance if you do not cure your default within 15 days after we send a written
default notice. We have this right, without notice, if the default is your 3rd within 12 months and we notified you of the prior 2. In addition, if you are domiciled in

Wisconsin, to the extent not prohibited by law, the account will terminate (and your privilege of using the Card will cease) on the day we receive written notice
from your spouse terminating the account; but you and your spouse, to the extent not prohibited by the law, remain responsible for all amounts debited to your
account (including finance charges) both before and after receipt by us of such notice of termination. Upon such a termination, we may demand immediate
payment of your full account balance.
Your privilege of using the Card and the account will expire on the date shown on the Card. You may terminate your account relationship with us at any time by
surrendering to us all of your Cards but you will remain liable to us for full payment of any balance of your account. We may revoke your Card at any time without
prior notification and without affecting your obligation to pay the account balance.
8. Governing Law; Security Interest. Each purchase and cash advance through your account constitutes a loan made by us to you in the state of Wisconsin.
You agree that the Wisconsin Consumer Act applies to all these loans (except for the rate of INTEREST CHARGE which may be governed by federal law) even
though you may use them for business purposes, or you are a person not otherwise covered by the Act. To secure each purchase loan, you grant us a security
interest under the Uniform Commercial Code in any goods you purchase with it. If you default, we will have the right to recover any of these goods which have
not been fully paid for through our application of your payments in the manner described in Section 422.418(3) and (4) Wis. Stats. If you give or have given us
any other security interests for all your debts, your account will also be secured by the property described in those security agreements (except for your home
and the personal property, home furnishings, appliances and clothing described in Section 422.417 Wis. Stats., and when your account balance is less than
$1,000 except for other real estate).
9. Foreign Transactions. Purchases and cash advances you make in foreign countries and foreign currencies will be billed to you in U.S. dollars. The
conversion to dollars will be made by the foreign plan member’s bank in accordance with the applicable VISA operating regulations for international transactions.
Foreign Transaction Fee – 0.8% of the transaction amount on foreign transactions where there is no currency conversion. 1.0% of the transaction amount on
foreign transactions if there is a currency conversion.
10. Plan Member Disputes. We are not responsible for the refusal of any plan member or financial institution to honor your card. You must resolve directly with
the plan member any disputes regarding goods or services you purchase with the card, unless (a) your purchase was made from us or an affiliate or in response
to an advertisement we sent or participated in sending you; or (b) your purchase cost more than $50 and was made from a plan member in your state or within
100 miles of your current mailing address.
11. Use. If you are married or domiciled in Wisconsin, you represent that all transactions through your account will be incurred in the interest of your marriage or
family. You authorize us to pay for your account all items reflecting purchases or cash advances made with the Card or Convenience Check in spite of the
absence of your signature on a sales draft or the lack of presentation of the Card. By giving your Card or Convenience Check to someone else you authorize all
purchases and cash advances made by that person until you have notified us that future transactions are unauthorized.
Notify us at once at 800-325-3678 of any loss, theft, disappearance or possible unauthorized use of your Card or any Convenience Check.
12. Change of Address. We will send all account statements and any other notices or communications concerning this account to your address as shown on
our records. If you change your address, you must notify us of your new address within 15 days.
13. Effect of Regulations. These regulations are the entire contract which applies to all transactions on your account even though the sales, cash advance or
credit slips you sign may contain different terms. We may amend these regulations from time to time by sending you advance written notice. Your use of the
card or the account thereafter will indicate your agreement to the amendments. To the extent the law permits, and we indicate in our notice, amendments will
apply to your existing account balance as well as to future transactions. Our delay or failure to exercise any of our rights is not a waiver of those rights, and no
waiver or modifications of these Regulations is valid unless it is in writing and signed by us. You authorize us to investigate your credit standing at any time and
to disclose to others information relating to your credit experience with us.
BILLING RIGHTS SUMMARY
What to Do If You Think You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at Customer Service, PO Box 30495, Tampa, FL 33630. In your letter, give us the following
information:
•
Account information:
Your name and account number
•
Dollar Amount: The dollar amount of the suspected error.
•
Description of Problem:
If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us within 60 days after the error appeared on your statement. You must notify us of any potential errors in writing (or electronically). You may
call us, but if you do, we are not required to investigate any potential errors and you may have to pay the amount in question. While we investigate whether or not
there has been an error, the following are true:
•
We cannot try to collect the amount in question, or report you as delinquent on that amount.
•
The charge in question may remain on your statement, and we may continue to charge you interest on that amount. But, if we determine that we
made a mistake, you will not have to pay the amount in question or any interest or other fees related to that amount.
•
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your credit card
account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing (or electronically) at Customer Service, PO Box 30495,
Tampa, FL 33630. While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
Military Lending Act
Military Lending Act Protections. Under the Military Lending Act, the following statement applies to covered borrowers (Active Duty service members and their
dependents) with accounts established on or after October 3, 2017:
“Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost
of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include,
as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transactions or any application fee charged (other than certain application fees for specified credit transactions or accounts); and any participation fee
charged (other than certain participation fees for a credit card account).” If you would like to hear the statement above and/or hear your credit card account
payment obligation communicated to you orally, please call 844.334.3810
PROTECT YOUR BILLING RIGHTS; KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.

11.17

